Department of Homeland Security
   Ofﬁce of Inspector General


     Annual Review of the United States Coast Guard's 

                  Mission Performance 

                        (FY 2007) 





OIG-09-13                                    December 2008
                                                  (Revised)
                                                               Office of Inspector General

                                                               U.S. Department of Homeland Security
                                                               Washington, DC 20528




                                  December 17, 2008


                                           Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the annual review of the U.S. Coast Guard’s mission performance,
as required by the Homeland Security Act of 2002. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.



                                       Richard L. Skinner 

                                       Inspector General 

Table of Contents/Abbreviations 


Executive Summary ........................................................................................................... 1

Background ........................................................................................................................ 2 

Results of Review ...............................................................................................................3 


   Non-Homeland Security Mission Performance Continues to Fall Short of 

     Targets ....................................................................................................................... 4 


   Total Resource Hours Remain Level, But Hours for 

     Non-Homeland Security Missions Decline .............................................................. 4 


   Future Budget Dollars and Personnel Resources to Emphasize Homeland Security 

      Missions .................................................................................................................... 6


   Performance Measures Now Part of the DHS Annual Performance Report and are 

      Evaluated for Completeness and Reliability ............................................................. 9 


Appendices
  Appendix A:           Non-Homeland Security Missions as Reported by Coast Guard........... 13 

  Appendix B:           Homeland Security Missions as Reported by Coast Guard ................... 21 

  Appendix C:           Objectives, Scope, and Methodology ................................................... 28 

  Appendix D:           Management Comments to the Draft Report ........................................ 30 

  Appendix E:           Major Contributors to this Report ......................................................... 36 

  Appendix F:           Report Distribution ............................................................................... 37 



Abbreviations
  DHS                   Department of Homeland Security 

  FY                    Fiscal Year            

  GAO                   Government Accountability Office 

  OIG                   Office of Inspector General 

  OMB                   Office of Management and Budget 





           Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    This report presents our annual review of the U.S. Coast Guard’s
                    mission performance as required by the Homeland Security Act of
                    2002. To address the Act’s requirements, we reviewed the Coast
                    Guard’s reported performance targets and results for each non-
                    homeland security and homeland security mission, as well as its
                    reported resource hours used to perform the various missions from
                    Fiscal Year 2001 through Fiscal Year 2007. We also reviewed
                    Coast Guard’s reported budget figures allocated by mission from
                    Fiscal Year 2004 through Fiscal Year 2007, and projected through
                    Fiscal Year 2009. This report summarizes the Coast Guard
                    reported data; we did not verify the accuracy of this data.

                    The Coast Guard reported it met 6 of 11 performance targets in
                    Fiscal Year 2007, the same overall level of performance as Fiscal
                    Year 2006. For the second year in a row, the Coast Guard met 2 of
                    the 6 performance targets for non-homeland security missions.
                    Further, Coast Guard data show that in Fiscal Year 2007 compared
                    to Fiscal Year 2006, non-homeland security missions resource
                    hours decreased while homeland security missions resource hours
                    increased. Similarly, Coast Guard budget projections in dollars
                    and personnel from Fiscal Year 2007 to Fiscal Year 2009 illustrate
                    decreases for the non-homeland security missions and increases for
                    the homeland security missions.

                    The Coast Guard concurred with the majority of the findings in the
                    draft report. The Coast Guard was concerned that the conclusions
                    regarding greater mission emphasis on homeland security missions,
                    based on budget authority allocation projections, were misleading.
                    According to the Coast Guard, this was not designed for nor
                    intended to project out-year budget allocations across missions. We
                    have made changes throughout the report to address the Coast
                    Guard’s comments, as appropriate, and have included the comments
                    in their entirety as Appendix D.

                    Our analysis, however, of the Coast Guard’s reported mission
                    performance, resource hours, and budget projections shows a clear
                    trend toward emphasizing the homeland security missions, which
                    will lead to continuing difficulty in meeting future performance
                    targets for the non-homeland security missions.

     Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                        Page 1
Background
                   Coast Guard Missions. Section 888 of the Homeland Security
                   Act of 2002, Public Law 107-296, November 25, 2002, directs the
                   Inspector General to conduct an annual review that assesses the
                   performance of all the Coast Guard missions, with a particular
                   emphasis on non-homeland security missions. This Section also
                   defines the Coast Guard’s missions as either non-homeland
                   security missions or homeland security missions as follows:

                   Non-Homeland Security Missions
                      • Marine safety
                      • Search and rescue
                      • Aids-to-navigation
                      • Living marine resources
                      • Marine environmental protection
                      • Ice operations

                   Homeland Security Missions
                     • Ports, waterways, and coastal security
                     • Drug interdiction
                     • Migrant interdiction
                     • Defense readiness
                     • Other law enforcement

                   In addition, Section 888 of the Act prohibits the Secretary from
                   substantially or significantly reducing any of the Coast Guard’s
                   missions or its capability to perform those missions, subsequent to
                   the transfer of the Coast Guard to the Department of Homeland
                   Security (DHS).

                   Performance Targets and Results. The Coast Guard’s
                   performance is measured as part of the DHS Performance
                   Management Framework, which ties DHS’ goals and objectives to
                   its mission-oriented programs. Program performance goals are
                   reported in terms of their associated performance measures and
                   targets, which express the tangible, measurable objective against
                   which actual achievement can be compared.

                   DHS participated in an Office of Management and Budget (OMB)
                   Pilot Program for Alternate Approaches to Performance and
                   Accountability Reporting for Fiscal Year (FY) 2007. This pilot
                   program sought to improve performance reporting by presenting
                   information in a more accessible, informative, and complete
                   format. The pilot, pursuant to OMB Circular A-136, Financial

    Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                       Page 2
                    Reporting Requirements, is an alternative to the consolidated
                    Performance and Accountability Report published in previous
                    years. The Annual Performance Report, one of three separate
                    reports of the pilot, contains DHS’ Annual Performance Plan for
                    FY 2009. The Annual Performance Report also contains more
                    detailed performance information as required by the Government
                    Performance and Results Act. It reports performance
                    achievements for FY 2007 and communicates projected levels of
                    performance associated with the FY 2009 President’s Budget. We
                    did not verify the accuracy of the reported performance measure
                    results.

                    Resource Hours. The Coast Guard uses resource hours –
                    generally the number of flight hours (for aircraft) and underway
                    hours (for boats and cutters) dedicated to a specific mission – to
                    determine the amount of time that is expended in each of its
                    non-homeland security and homeland security missions. During
                    our review, we analyzed the total number of resource hours
                    reported by the Coast Guard from a baseline of pre-September 11,
                    2001 data, through FY 2007. The Coast Guard-calculated baseline
                    is an annual average of resource hours based on eight FY quarters
                    preceding September 11, 2001. We did not, however, verify the
                    resource hour data reported by the Coast Guard, nor did we
                    validate whether the Coast Guard accurately classified resource
                    hour use for each mission. We assessed total resource hours for
                    the 11 individual missions in order to identify the changes in each.

                    Budget Figures Allocated by Mission. The Annual Performance
                    Report also contains full cost budget figures by Coast Guard
                    mission, including allocated overhead and administrative costs.
                    The figures presented are from FY 2004 through FY 2007, as well
                    as projections for FY 2008 and FY 2009.

Results of Review
                    Our analysis of the Coast Guard’s reported mission performance,
                    resource hours, and budget projections in dollars and personnel
                    indicates a clear trend toward emphasis of the homeland security
                    missions. Non-homeland security mission performance, as shown
                    in Table 5 (page 14), declined to its lowest level in FY 2006 since
                    FY 2001 and did not improve in FY 2007, meeting only two of six
                    targets. In contrast, homeland security missions performance, as
                    shown in Table 6 (page 22), improved significantly between FY
                    2001 and FY 2006 and maintained that level of performance for
                    FY 2007, meeting four of five targets. In addition, the majority of


     Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                        Page 3
               resource hours prior to September 11, 2001, were dedicated to the
               non-homeland security missions while the majority of resource
               hours since FY 2001 have been dedicated to the homeland security
               missions. Coast Guard budget projections in dollars and personnel
               from FY 2007 through FY 2009 illustrate decreases for the non-
               homeland security missions in contrast to significant increases for
               the homeland security missions, especially for the Ports,
               Waterways, and Coastal Security mission.

Non-Homeland Security Mission Performance Continues to Fall
Short of Targets
               The Coast Guard reported it met the same 6 of 11 performance
               targets for FY 2007 that it met for FY 2006. For the second year in
               a row, the Coast Guard reported it only met its performance targets
               for 2 of the 6 non-homeland security missions. Two of the non-
               homeland security missions, Search and Rescue and Living Marine
               Resources, missed their targets by less than 1% for both years.
               The targets for the other two non-homeland security missions,
               Aids-to-Navigation and Marine Safety, were more widely missed.
               According to the Coast Guard, its performance goals are
               “ambitious and achievable,” and if properly established, may not
               be achieved each year.

               In contrast, the Coast Guard reported it met four of the five
               performance targets for the homeland security missions for FY
               2007, which matched its FY 2006 results. The only performance
               target that was not met was Defense Readiness, which has not been
               met since FY 2001. Coast Guard officials do not believe this
               measure will be met until new Deepwater assets are fielded. Coast
               Guard’s Deepwater program is a 25-year, $24 billion effort to
               upgrade or replace existing vessels and aircraft.

               Assessments of Coast Guard reported performance targets and
               results for non-homeland security missions and homeland security
               missions are included in Appendices A and B, respectively.

Total Resource Hours Remain Level, But Hours for Non-
Homeland Security Missions Decline
               Based on the Coast Guard’s data, we conclude that the Coast
               Guard’s heightened responsibilities to protect America’s ports,
               waterways, and waterside facilities from terrorist attacks will
               continue to require significant resource hours. However, an
               unexpected major event, such as a natural disaster (another

Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                   Page 4
               Hurricane Katrina) or a man-made disaster (a terrorist attack)
               could result in shifting resources between non-homeland security
               and homeland security missions. Prior to FY 2001, the majority of
               Coast Guard reported resource hours were dedicated to the non-
               homeland security missions; however, since September 11, 2001,
               the majority of reported resource hours have been dedicated to the
               homeland security missions as illustrated in the following chart.

                                                               Resource Hours-All Missions

                                                         Non-Homeland Security Missions    Homeland Security Missions

                                   900,000
                                   800,000
                  Resource Hours




                                   700,000
                                   600,000
                                                                                                     57%        55%     57%
                                   500,000                                                63%
                                                                              62%
                                                        41%        58%
                                   400,000    38%
                                   300,000
                                   200,000                                                                      45%
                                              62%       59%                                          43%                43%
                                                                   42%        38%         37%
                                   100,000
                                         0
                                             Baseline   2001       2002       2003        2004       2005       2006    2007
                                                                                Fiscal Year


               Source: U.S. Coast Guard Reported Data

               Total Coast Guard reported resource hours, comprised of the
               number of flight hours (for aircraft) and underway hours (for boats
               and cutters) dedicated to a specific mission, dropped to 770,716 in
               FY 2007, declining by less than 1%, compared to 774,112 in
               FY 2006. Of that total in FY 2007, non-homeland security
               resource hours dropped to 328,617, decreasing 4.7% compared to
               344,993 the previous year. Homeland security resource hours
               reached 442,099 in FY 2007, increasing 3.0% compared to
               429,199 the previous year.

               Total resource hours for FY 2007 have increased 59.2% from
               baseline. Non-homeland security resource hours have increased
               10% while homeland security resource hours have increased 138%
               from baseline figures. For FY 2007, 42.6% of resource hours were
               for non-homeland security missions while the balance of 57.4%
               represented homeland security missions. The largest percentage of
               all Coast Guard resource hours was utilized by Ports, Waterways,
               and Coastal Security, a homeland security mission, accounting for
               28.5% of total resource hours for FY 2007. The following chart
               illustrates each mission’s resource hours for FY 2007.




Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                        Page 5
                                                              Resource Hours By Mission - FY 2007

                                                                                    Non-Homeland Security Missions                                                                                Homeland Security Missions


                                  250,000

                                  200,000




                 Resource Hours
                                  150,000

                                  100,000

                                   50,000

                                       0




                                                                                                                                                                                                                                                                                        Migrant Interdiction
                                                                                                Navigation




                                                                                                                                                                                     Operations




                                                                                                                                                                                                                                                                                                                         Readiness
                                                                                                                                                                                                                                                          Interdiction
                                                                                                                                         Marine Environmental




                                                                                                                                                                                                                                           Illegal Drug
                                            Marine




                                                                                                             Living Marine
                                                     Safety




                                                                                                                                                                                                                                                                                                                                                 Enforcement
                                                              Search and




                                                                                                                                                                                                   Ports, Waterways &
                                                                                                                             Resources




                                                                                                                                                                                                                                                                                                               Defense
                                                                                     Aids-to-




                                                                                                                                                                                                                                                                                                                                     Other Law
                                                                                                                                                                                                                                                                         Undocumented
                                                                           Rescue




                                                                                                                                                                                                                        Coastal Security
                                                                                                                                                                               Ice
                                                                                                                                                                Protection
                                                                                                                                                                             Missions


               Source: U.S. Coast Guard Reported Data

               Assessments of Coast Guard reported resource hours for individual
               non-homeland security missions and homeland security missions,
               are included in Appendices A and B, respectively.

Future Budget Dollars and Personnel Resources to Emphasize
Homeland Security Missions
               The Department of Homeland Security’s Annual Performance
               Report for Fiscal Years 2007 – 2009 contains Program Measure
               Results and Plan tables which provide detailed information for
               each program (mission) that contributes to DHS goals and
               objectives. Each Coast Guard non-homeland security mission and
               homeland security mission has an individual table which includes
               information describing the resources needed (dollars and
               personnel) to achieve the mission’s performance target. Budget
               dollar figures on the tables represent the full cost of the missions,
               including allocated overhead and administrative costs. Historical
               results are displayed for FY 2004 through FY 2007 and projections
               are made for FY 2008 and FY 2009.

               Budget: We compiled and totaled the dollar budget figures for
               each mission from the Annual Performance Report, as presented in
               Table 1.




Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                                           Page 6
                                                           Table 1
                                               U.S. Coast Guard Budget ($ Millions)
                                                 FY         FY              FY            FY               FY          FY
                                                2004       2005            2006          2007             2008        2009
                Non-Homeland Security
                                                    �             Actual             �                � Estimated �
                Missions
                Search and Rescue               $1,576       $911           $832           $929            $904           $924
                Marine Safety                      487        614            786            755             757            754
                Aids-to-Navigation                 946       1,153          1,156          1,321           1,276          1,189
                Ice Operations                     185        186            111            132             149            133
                Marine Environmental
                                                   350        255            337            298             373            359
                Protection
                Living Marine Resources            742        720            766            972             777            833
                Total Non-Homeland
                                                $4,286     $3,839          $3,988        $4,407           $4,236      $4,192
                Security Missions
                Homeland Security
                Missions
                Migrant Interdiction              $245       $549           $504           $874            $510           $515
                Drug Interdiction                  907      1,017           1,244          1,280           1,208          1,276
                Other Law Enforcement              103         95            108            160             105            136
                Ports, Waterways, and
                                                 1,834      1,625           1,610         1,362            2,081          2,593
                Coastal Security
                Defense Readiness                  229        613            510            691             765            634
                Total Homeland
                                                $3,318     $3,899          $3,976        $4,367           $4,669      $5,154
                Security Missions
                Totals                         $7,604      $7,738        $7,964          $8,774       $8,905         $9,346
               Source: U.S. Coast Guard Reported Data

               The figures clearly illustrate the Ports, Waterways, and Coastal
               Security mission dollars, which had declined between FY 2004 and
               FY 2007, are projected to almost double from FY 2007 to
               FY 2009. As the following chart illustrates, the annual budget
               projections in dollars (identified in Table 1) for FY 2009 by
               mission illustrate a 4.9% reduction for the non-homeland security
               missions from FY 2007, while homeland security missions will
               increase by 18.0%.

                                                  Missions Budget Distribution

                                           Non-Homeland Security Missions            Homeland Security Missions


                               $6,000
                  $ Millions




                               $5,500
                               $5,000
                               $4,500
                               $4,000
                               $3,500
                               $3,000
                               $2,500
                                        2004        2005          2006            2007             2008            2009
                                                                     Fiscal Year


               Source: U.S. Coast Guard Reported Data

Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                           Page 7
               Personnel: We also compiled and totaled personnel figures from
               the Annual Performance Report, as presented in Table 2.
                                                                            Table 2
                                                           U.S. Coast Guard Full Time Equivalents
                                                               FY           FY           FY              FY               FY         FY
                                                              2004         2005         2006            2007             2008       2009
                Non-Homeland
                                                                   �              Actual              �             � Estimated �
                Security Missions
                Search and Rescue                               4,845        4,136          4,652         5,004           4,893      4,826
                Marine Safety                                   3,223        5,528          4,012         4,109           3,806      3,801
                Aids-to-Navigation                              6,749        6,985          7,526         8,549           7,330      7,269
                Ice Operations                                  1,295        1,149           906           854             810           791
                Marine Environmental
                                                                1,944        1,460          1,356         1,222           1,174      1,138
                Protection
                Living Marine Resources                         4,567        4,022          4,208         4,849           3,955      3,841
                Total Non-Homeland
                                                              22,623       23,280       22,660          24,587           21,968     21,666
                Security Missions
                Homeland Security
                Missions
                Migrant Interdiction                            1,518        3,065          2,467         4,392           2,481      2,395
                Drug Interdiction                               5,494        4,662          6,333         6,159           6,006      5,798
                Other Law Enforcement                             657          445           703           758             587           575
                Ports, Waterways, and
                                                              14,670       12,268       12,906            7,710          13,864     15,066
                Coastal Security
                Defense Readiness                                 996        2,942          2,076         4,038           3,644      3,422
                Total Homeland
                                                              23,335       23,382       24,485          23,057           26,582     27,256
                Security Missions
                Totals                                       45,958       46,662       47,145          47,644        48,550        48,922
               Source: U.S. Coast Guard Reported Data

               As indicated in the compiled figures (identified in Table 2) and in
               the following chart, budget projections for FY 2009 by mission
               show an 11.9% drop in personnel for non-homeland security
               missions from FY 2007. In contrast, the homeland security
               missions, led by increased resources allocated to the Ports,
               Waterways, and Coastal Security mission, are projected to increase
               by 18.2% from FY 2007.

                                                                   Full Time Equivalents By Missions

                                                           Non-Homeland Security Missions           Homeland Security Missions


                                           35,000
                   Full Time Equivalents




                                           30,000

                                           25,000

                                           20,000

                                           15,000

                                           10,000
                                                    2004       2005            2006            2007               2008            2009
                                                                                   Fiscal Year

               Source: U.S. Coast Guard Reported Data

Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                           Page 8
               Coast Guard officials stated it would be inaccurate to infer that the
               homeland security missions will be emphasized in FY 2008 and
               FY 2009 based on the figures provided in the Annual Performance
               Report. Officials indicated the tables in the Annual Performance
               Report are generated by a budget tool that distributes budget
               authority across mission-programs based on reported asset hours
               for prior FYs, and projected hours based on a 5-year historical
               baseline for current and future FYs. Officials said the budget tool
               was not designed for, nor intended to project, out-year budget
               allocations across missions. The Coast Guard has established a
               working group to improve the cost model’s out-year projection
               accuracy. However, these published projections are based on
               historical data which, notwithstanding the limitations of the model
               as a predictive tool, from our analysis show a clear trend of
               emphasis towards the homeland security missions.

Performance Measures Now Part of the DHS Annual
Performance Report and are Evaluated for Completeness and
Reliability
               DHS participated in the OMB Pilot Program for Alternative
               Approaches to Performance and Accountability Reporting for
               FY 2007, as an alternative to the consolidated Performance and
               Accountability Report published in previous years. The objective
               of the pilot is to make the presentation of performance information
               more meaningful. As part of this pilot, three separate reports are
               produced: Annual Financial Report, Annual Performance Report,
               and Highlights Report. DHS anticipates this approach will
               improve its performance reporting by presenting the information in
               a more accessible, informative, and complete format. Of the three
               reports, our focus is the Annual Performance Report, which
               contains performance measures, targets, and results by mission.

               The Annual Performance Report combines what was formerly
               known as the Performance Budget Overview along with the
               performance information formerly reported in the Performance and
               Accountability Report. The Annual Performance Report contains
               more detailed performance information than the former
               Performance and Accountability Report as required by the
               Government Performance and Results Act. The report is organized
               by the department’s goals and objectives, with a summary for each
               program performance goal. Program performance goals are
               reported in terms of their associated performance measures and
               targets, which express the tangible, measurable objectives against

Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                   Page 9
               which actual achievements can be compared. For each
               performance measure presented in the Annual Performance Report,
               a description of the measure, the source of the data, how it is
               collected, and an assessment of the reliability of data are provided.

               Reliability is determined by using OMB guidance, OMB Circulars
               A-136, Financial Reporting Requirements and A-11, Preparation,
               Submission and Execution of the Budget. According to the
               Annual Performance Report, performance data need not be perfect
               to be reliable, particularly if the cost and effort to secure the best
               performance data possible will exceed the value of any data so
               obtained. At a minimum, the Annual Performance Report
               considers performance data to be reliable if program managers and
               decision makers use the data on an ongoing basis in the normal
               course of their duties. According to the Annual Performance
               Report, performance data are also considered reliable if supporting
               transactions and other data are properly recorded, processed, and
               summarized in accordance with criteria stated by management.

               According to the Annual Performance Report, the department has
               reviewed performance measures for conformance to the standard
               of completeness and reliability as specified for federal agencies per
               OMB. The Annual Performance Report indicates that information
               contained therein is complete and reliable in accordance with these
               standards.

               Performance Measures will be Refined to Improve Ability to
               Capture and Record Results

               According to the Annual Performance Report, DHS is committed
               to enhancing its ability to measure and report on performance
               achievements. The Annual Performance Report also states that
               since many programs focus on prevention goals, developing
               outcome oriented performance measures is a challenge. This is an
               iterative process to improve performance measures as
               sophistication in quantifying results grows.

               As such, the DHS Performance Plan for FY 2008 will contain
               149 performance measures; of these 58 are new performance
               measures to improve the ability to capture and record results.
               Further, 36 performance measures have been retired and replaced
               with new performance measures.

               The Coast Guard reported 11 performance measures in the
               FY 2007 Annual Performance Report. The Coast Guard will retire
               the following three existing performance measures for FY 2008:

Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                   Page 10
                                                                Table 3
                                              FY 2008 Retired Performance Measures
                                   Mission                                 Measure
                            Marine Safety           • Maritime injury and fatality index.
                            Marine                  • Five-year average number of chemical discharges
                            Environmental             and oil spills per 100 million short tons shipped.
                            Protection
                            Undocumented            • Percent of undocumented migrants who attempt to
                            Migrant Interdiction      enter the U.S. via maritime routes that are
                                                      interdicted or deterred.
                           Source: Annual Performance Report

                           Also, the following 17 new performance measures will be added in
                           FY 2008:
                                                             Table 4
                                                 FY 2008 New Performance Measures
                                    Mission                                 Measure
                             Aids-To-Navigation • Federal aids to navigation availability.
                             Ice Operations         • Percent success rate in meeting requests for polar ice
                                                      breaking.
                             Marine Safety          • Five-year average number of commercial mariner
                                                      deaths and injuries.
                                                    • Five-year average number of commercial passenger
                                                      deaths and injuries.
                                                    • Five-year average number of recreational boating
                                                      deaths and injuries.
                             Marine                 • Five-year average number of oil spills per 100
                             Environmental            million short tons shipped.
                             Protection             • Percent of oil removed or otherwise mitigated as
                                                      compared to the amount of oil released for reported
                                                      spills of 100 gallons or more.
                                                    • Five-year average number of chemical discharge
                                                      incidents per 100 million short tons shipped.
                             Ports, Waterways,      • Critical infrastructure required visit rate.
                             and Coastal Security • High capacity passenger vessel required escort rate.
                                                    • Number of Transportation Workers Identification
                                                      Credential spot checks.
                                                    • Risk reduction due to consequence management.
                                                    • Percent risk reduction for the transfer of a terrorist
                                                      meta-scenario.1
                                                    • Percent risk reduction for the transfer of a weapon
                                                      of mass destruction meta-scenario.
                             Undocumented           • Percent of undocumented migrants interdicted
                             Migrant Interdiction     attempting to enter the U.S. via maritime routes.
                             Defense Readiness      • Defense Readiness of patrol boats.
                                                    • Defense Readiness of port security units.

                           Source: Annual Performance Report

1
  A meta-scenario is a quantitative self-assessment by Subject Matter Experts to assess the overall
effectiveness of all relevant activities against a comprehensive set of scenarios previously identified
through an extensive strategic risk assessment.

         Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                   Page 11
               As a result of the changes to the performance measures, the Coast
               Guard will report in FY 2008 on 12 non-homeland security
               mission measures and 13 homeland security mission measures.

               Assessments of Coast Guard reported performance targets and
               results for non-homeland security missions and homeland security
               missions are included in Appendices A and B, respectively.




Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                   Page 12
Appendix A
Non-Homeland Security Missions

                     Non-Homeland Security Missions – Total Resource Hours As
                     Reported by Coast Guard

                     Resource Hours. After an initial drop in non-homeland security
                     resource hours in FY 2002, the total non-homeland resource hours
                     increased through FY 2006, then decreased in FY 2007 as shown
                     in the chart below. The significant increase (23%) in resource
                     hours from FY 2004 to FY 2005 is largely attributed to major
                     Search and Rescue efforts in the aftermath of Hurricane Katrina.
                     The FY 2007 total non-homeland security resource hours are 10%
                     above baseline hours.

                                                     Non-Homeland Security Missions Resource Hours

                                         400,000

                                         350,000

                                         300,000
                        Resource Hours




                                         250,000

                                         200,000

                                         150,000

                                         100,000

                                          50,000

                                              0
                                                   Baseline   2001      2002   2003     2004   2005   2006   2007
                                                                                Fiscal Ye ar


                     Source: U.S. Coast Guard Reported Data

                     Performance Targets and Results. For FY 2007, the Coast
                     Guard did not meet the same four of six non-homeland security
                     missions performance measures it missed in FY 2006. The Search
                     and Rescue and the Living Marine Resources missions did not
                     achieve their targets by less than 1%. The Aids-to-Navigation and
                     the Marine Safety missions did not achieve their targets by larger
                     margins.

                     The Marine Environmental Protection mission has met its target
                     for each year from FY 2001 through FY 2007 and the Ice
                     Operations mission has met its target the past 3 years.

                     Specific performance targets and results for each of the non-
                     homeland security missions from FY 2001 through FY 2007 are
                     summarized in Table 5.




      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                              Page 13
    Appendix A
    Non-Homeland Security Missions
                                                                     Table 5
    Coast Guard Reported Non-Homeland Security Missions Performance Targets and Results
 Non-Homeland Security                  FY         FY          FY          FY          FY          FY          FY          Performance
       Missions                        2001       2002        2003        2004        2005        2006        2007           Measure
                                                                                                                        Percentage of mariners
                         Target        85%         85%         85%         85%         86%         86%         86%      in imminent danger
   Search and                                                                                                           saved
     Rescue
                         Actual        84.2%      84.4%       87.7%       86.8%       86.1%       85.3%       85.4%

                                         X          X            �           �           �          X           X
                          Result      Not Met    Not Met       Met         Met         Met       Not Met     Not Met
                                                                                                                        5-year average number
                                       2,261       2,098      2,010        1,923      1,831       1,748                 of collisions, allisions,
    Aids-to-             Target                                                                               1,664
                                                                                                                        and groundings
   Navigation
                         Actual        2,215       2,098      2,000        1,876      1,825       1,765       1,823
                                         �           �           �           �           �          X           X
                          Result        Met        Met         Met         Met         Met       Not Met     Not Met
                                                                                                                        Limit the number of
                                                                                                    2           2       days critical
 Ice Operations                          8           2           8           2           2       Average     Average    waterways are closed
                         Target
                                                                                                 8 Severe    8 Severe   due to ice:

                                         7           7           7           4           0           0          0          2 days in an average
                         Actual
                                                                                                                           winter
                                         �          X            �          X            �          �           �
                                                                                                                           8 days in a severe
                          Result        Met      Not Met       Met       Not Met       Met         Met         Met         winter
                                                                                                                        Percentage of
                         Target        97%         97%         97%         97%         97%         97%         97%      fishermen complying
 Living Marine                                                                                                          with federal
   Resources                                                                                                            regulations
                         Actual        98.6%      97.3%       97.1%       96.3%       96.4%       96.6%       96.2%

                                         �           �           �          X           X           X           X
                          Result
                                        Met        Met         Met       Not Met     Not Met     Not Met     Not Met
                                                                                                                        5-year average number
                         Target         N/A        N/A        1,543        1,513      1,317       1,280       4,549*    of commercial
 Marine Safety                                                                                                          mariner, commercial
                         Actual                                                                                         passenger, and
                                       1,651       1,332      1,307        1,293      1,277       1,400       4,770*    recreational boating
                                                                 �           �           �          X           X       deaths and injuries*
                          Result        N/A        N/A         Met         Met         Met       Not Met     Not Met
                                                                                                                        5-year average number
    Marine               Target          47         45          43          41          20
                                                                                                   19 or      19 or     of oil spills per 100
                                                                                                    less       less     million short tons
 Environmental                                                                                                          shipped and the 5-year
   Protection            Actual                                                                                         average number of
                                        40.3       35.1        29.4        22.1        18.5        16.3         15      chemical discharge
                                                                                                                        incidents per 100
                                         �           �           �           �           �          �           �       million short tons
                          Result                                                                                        shipped
                                        Met        Met         Met         Met         Met         Met         Met
 Subtotal: Non-
   Homeland
                                      4 of 5      3 of 5      6 of 6      4 of 6      5 of 6     2 of 6      2 of 6
 Security Goals
      Met
* The Marine Safety performance measure methodology changed to include recreational boating injuries in addition to the recreational
boating fatalities and commercial vessel injuries and fatalities previously included. The FY 2007 target was changed to reflect the inclusion of
recreational boating injuries.


                Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                                     Page 14
Appendix A
Non-Homeland Security Missions

                     Non-Homeland Security Mission: Search and Rescue

                     The Search and Rescue mission responsibilities include
                     minimizing the loss of life, personal injury, and property loss and
                     damage in the maritime environment by rendering aid to persons in
                     distress and property associated with maritime transportation,
                     fishing, and recreational boating.

                     Resource Hours. Resource hours for the Search and Rescue
                     mission increased in FY 2001, decreased during FYs 2002 and
                     2003, and then slightly increased in FY 2004, as illustrated in the
                     chart below. The decreases during FYs 2002 and 2003 were
                     expected due to the responses to the events of September 11, 2001,
                     with more resources directed to homeland security missions, such
                     as Ports, Waterways, and Coastal Security. However, in FY 2005,
                     Search and Rescue showed a significant increase, attributable to
                     the Coast Guard’s response to Hurricane Katrina, approaching
                     baseline levels. FY 2007 resource hours held steady with the
                     reduced levels in FY 2006, constituting 73% of baseline.

                                                             Search and Rescue Resource Hours

                                         90,000
                                         80,000
                                         70,000
                        Resource Hours




                                         60,000
                                         50,000
                                         40,000
                                         30,000
                                         20,000
                                         10,000
                                             0
                                                  Baseline   2001      2002   2003     2004   2005   2006   2007
                                                                               Fiscal Year


                     Source: U.S. Coast Guard Reported Data
                     Performance Targets and Results. In FY 2007, the second year
                     in a row, the Coast Guard missed meeting their target for saving
                     mariners in imminent danger by less than 1%. The Coast Guard
                     attributed missing the target to several unpredictable factors such
                     as weather, location, incident severity, and life saving devices
                     onboard, which influenced the number and the outcome of
                     incidents. According to the Coast Guard, in FY 2008, Search and
                     Rescue mission performance is expected to benefit from the
                     installation of improved direction finder technologies on more
                     aircraft and Digital Selective Calling capability onboard additional
                     cutters and small boats.


      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                             Page 15
Appendix A
Non-Homeland Security Missions

                     Non-Homeland Security Mission: Aids-to-Navigation

                     The Aids-to-Navigation mission is a means for the Coast Guard to
                     mark the waters of the United States and its territories to assist
                     boaters in navigation and alert them to obstructions and hazards.

                     Resource Hours. The chart below shows FY 2007 resource hours
                     at a 3% decrease from FY 2006, resulting in an approximate 9%
                     decrease from the baseline level and the lowest resource hours to
                     date for the Aids-to-Navigation mission.

                                                              Aids-to-Navigation Resource Hours

                                        140,000
                                        120,000
                        ResourceHours




                                        100,000
                                         80,000
                                         60,000
                                         40,000
                                         20,000
                                             0
                                                  Baseline   2001      2002   2003     2004   2005   2006   2007
                                                                               Fiscal Year


                     Source: U.S. Coast Guard Reported Data

                     Performance Targets and Results. In FY 2007, the Aids-to-
                     Navigation mission did not meet its performance target by
                     approximately 10% after missing the FY 2006 target by less than
                     1%. This mission had been successful in meeting its established
                     targets for the 5 years preceding FY 2006. To improve
                     performance in FY 2008, the Coast Guard intends to expand
                     requirements for vessels to carry Automatic Identification Systems
                     and Electronic Chart Systems, as well as continue a review of the
                     Short Range Aids to Navigation system.

                     A new performance measure will be added for FY 2008 to measure
                     Aids-to-Navigation availability as an indicator of system
                     functionality.




      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                             Page 16
Appendix A
Non-Homeland Security Missions

                          Non-Homeland Security Mission: Ice Operations

                          Ice Operations is responsible for icebreaking activities in the Great
                          Lakes, St. Lawrence Seaway, and Northeast.2 This facilitates the
                          movement of bulk cargoes carried by regional commercial fleets
                          during the winter months.

                          Resource Hours. Resource hours for Ice Operations steadily
                          increased through FY 2004 and took a sharp decline in FY 2005
                          and again in FY 2006. These are not unusual fluctuations since
                          this mission is dependent on ice accumulation, which fluctuates on
                          a yearly basis. In FY 2007 resource hours increased by 49% from
                          FY 2006, which resulted in a 14% decrease from the baseline
                          level.

                                                                    Ice Operations Resource Hours

                                              20,000
                                              18,000
                                              16,000
                             Resource Hours




                                              14,000
                                              12,000
                                              10,000
                                               8,000
                                               6,000
                                               4,000
                                               2,000
                                                   0
                                                       Baseline   2001      2002   2003     2004   2005   2006   2007
                                                                                    Fiscal Year



                          Source: U.S. Coast Guard Reported Data

                          Performance Targets and Results. In FY 2007, the Ice
                          Operations mission program successfully met its performance
                          target. According to the Coast Guard, this was a result of cutter
                          icebreaking efforts, particularly by the new USCGC MACKINAW.
                          In FYs 2008 and 2009, the Coast Guard intends to implement
                          recommendations from internal studies to preserve readiness during
                          rehabilitation of its fleet of aging, 140 foot icebreaking tugs.

                          Also, in FY 2008 a new measure will be added to measure the
                          percentage of success in meeting requests for polar icebreaking.

2
  In addition to domestic ice operations, the Coast Guard operates the only U.S.-controlled icebreakers
capable of operations in the polar regions. The Coast Guard operates these cutters and is reimbursed for
their operation and maintenance by the National Science Foundation. Resource hours for polar operations
are included in the chart; however, only Coast Guard-directed domestic ice operations performance targets
are measured.

         Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                                  Page 17
Appendix A
Non-Homeland Security Missions

                     Non-Homeland Security Mission: Living Marine Resources

                     This program’s mission is to provide effective and professional at-
                     sea enforcement of federal fisheries and other regulations to
                     advance national goals for the conservation and management of
                     Living Marine Resources and their environments.

                     Resource Hours. After the events of September 11, 2001,
                     resource hours for Living Marine Resources showed a significant
                     decrease in FY 2002. Since FY 2002, resource hours have steadily
                     increased each year to where FY 2007 levels are higher than the
                     baseline and all previous years.
                                                                      Living Marine Resource Hours

                                              120,000

                                              100,000
                        Reso u rce H o u rs




                                               80,000

                                               60,000

                                               40,000

                                               20,000

                                                   0
                                                        Baseline   2001      2002   2003     2004    2005   2006   2007
                                                                                     Fiscal Year


                     Source: U.S. Coast Guard Reported Data
                     Performance Targets and Results. In FY 2007, the domestic
                     fisheries mission did not meet its performance target for the fourth
                     straight year, in all years by less than 1%. According to Coast
                     Guard officials, the primary reason for not meeting the
                     performance target was that Coast Guard domestic fisheries
                     enforcement uncovered significant regulatory compliance
                     shortfalls in a number of Northeastern Atlantic fisheries.

                     The Coast Guard advises that in FYs 2008 and 2009, performance
                     will be temporarily affected by a reduction in available patrol
                     boats, as these assets are taken out of service to undergo Mission
                     Effectiveness Program enhancements. Coast Guard officials said
                     that these effects will be short-term setbacks that will ultimately
                     yield more sustained long-term performance as the legacy patrol
                     boats return to service. They also said that offsetting this decline
                     will be the addition of the first three new Maritime Patrol Aircraft,
                     each of which will provide added monitoring and detection
                     capabilities.

      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                                   Page 18
Appendix A
Non-Homeland Security Missions

                     Non-Homeland Security Mission: Marine Safety

                     Marine Safety ensures the safe operation and navigation of U.S.
                     and foreign flagged vessels. The mission is responsible for
                     providing safe, efficient, and environmentally sound waterways for
                     the myriad of commercial and recreational users. Domestic vessel
                     inspections and port state control (foreign vessel) examinations are
                     conducted in order to safeguard maritime commerce and
                     international trade.

                     Resource Hours. The Coast Guard did not report hours for this
                     mission prior to 2005. Resource hours for Marine Safety
                     decreased by approximately 28% from FY 2006.

                                                                   Marine Safety Resource Hours

                                         80000

                                         70000

                                         60000
                        Resource Hours




                                         50000

                                         40000

                                         30000

                                         20000

                                         10000

                                            0
                                                 Baseline   2001       2002    2003     2004      2005   2006   2007
                                                                                Fiscal Year


                     Source: U.S. Coast Guard Reported Data
                     Performance Targets and Results. According to the Coast
                     Guard, the Marine Safety mission did not meet its FY 2007
                     performance target because of the recent addition of untested
                     performance targets for recreational boating injuries. In FY 2007,
                     the Coast Guard partnered with state governments to increase
                     personal flotation device use in high-risk recreational activities.
                     Their efforts continue in FY 2008 and include new recreational
                     boating initiatives such as ensuring manufacturer compliance with
                     recreational boating standards.

                     This measure is being retired for FY 2008 and replaced with three
                     measures which will more closely link performance to goals. The
                     new measures will report on the 5-year average number of:

                                   •        Commercial mariner deaths and injuries;
                                   •        Commercial passenger deaths and injuries; and
                                   •        Recreational boating deaths and injuries.


      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                            Page 19
Appendix A
Non-Homeland Security Missions

                     Non-Homeland Security Mission: Marine Environmental
                     Protection

                     The Marine Environmental Protection falls under the Coast
                     Guard’s stewardship role and is concerned with averting the
                     introduction of invasive species, stopping unauthorized ocean
                     dumping, and preventing the discharge of oil or hazardous
                     substances on the navigable waters of the United States.

                     Resource Hours. The Coast Guard did not report resource hours
                     prior to FY 2005. Resource hours have declined from FY 2005 to
                     2007, with an overall 49% decrease during this timeframe.
                                                       Marine Environmental Protection Resource Hours

                                         6000

                                         5000
                        Resource Hours




                                         4000

                                         3000

                                         2000


                                         1000

                                           0
                                                Baseline   2001    2002     2003     2004   2005        2006   2007
                                                                             Fiscal Year


                     Source: U.S. Coast Guard Reported Data
                     Performance Targets and Results. The performance target for
                     this mission has been met since FY 2001. The Coast Guard
                     attributes the continued success of this mission in FY 2007 to
                     effective industry partnerships, joint federal agency exercises, and
                     working to update a joint contingency plan between the United
                     States and Mexico.

                     The FY 2007 performance measure will be retired for FY 2008 and
                     expanded to the following three separate measures in order to
                     improve the ability to capture and record results:

                                    •	 5-year average number of oil spills per 100 million short
                                       tons shipped;
                                    •	 5-year average number of chemical discharge incidents per
                                       100 million short tons shipped; and
                                    •	 Percent of oil removed compared to the amount of oil
                                       released for reported spills of 100 gallons or more.


      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                            Page 20
Appendix B
Homeland Security Missions

                     Homeland Security Missions – Total Resource Hours As
                     Reported by Coast Guard

                     Total resource hours for homeland security missions increased
                     from the baseline and peaked in FY 2004. Resource hours
                     decreased in FYs 2005 and 2006 before increasing in FY 2007.
                     The FY 2007 level is significantly (238%) above baseline levels,
                     as depicted in the chart below.

                                                     Homeland Security Missions Resource Hours

                                         500,000
                                         450,000
                                         400,000
                        Resource Hours




                                         350,000
                                         300,000
                                         250,000
                                         200,000
                                         150,000
                                         100,000
                                          50,000
                                               0
                                                   Baseline    2001     2002   2003    2004   2005   2006   2007


                                                                                Fiscal Year


                     Source: U.S. Coast Guard Reported Data

                     FY 2007 resource hours for some individual homeland security
                     missions increased compared to FY 2006 while others decreased.
                     Ports, Waterways, and Coastal Security; Undocumented Migrant
                     Interdiction; and Other Law Enforcement increased, while Drug
                     Interdiction and Defense Readiness decreased. When comparing
                     FY 2007 resource hours to the baseline, Ports, Waterways, and
                     Coastal Security; Defense Readiness; Undocumented Migrant
                     Interdiction; and Other Law Enforcement increased 1,039%,
                     505%, 234%, and 16%, respectively, while Drug Interdiction
                     decreased 39%.

                     Homeland Security Performance Targets and Results. For
                     FY 2007, the Coast Guard met four of five performance targets, as
                     it did in FY 2006. The Defense Readiness mission has not been
                     met in each year from FY 2001 through FY 2007 and the Coast
                     Guard is not optimistic about meeting this performance target until
                     Deepwater assets are fielded.

                     Specific performance targets and results for each of the homeland
                     security missions from FY 2001 through FY 2007 are summarized
                     in Table 6.

      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                              Page 21
Appendix B
Homeland Security Missions


                                                       Table 6
     Coast Guard Reported Homeland Security Missions Performance Targets and Results
   Homeland Security          FY        FY        FY        FY         FY        FY        FY          Performance
      Missions               2001      2002       2003     2004       2005      2006      2007           Measure
                              No        No        No        No       Baseline                       Percent reduction in the
                   Target    Measure   Measure   Measure   Measure   Establ.                        Maritime terrorism risk
    Ports,                                                                       14%       15%
                                                                                                    over which the Coast
  Waterways,                                                                                        Guard has influence
                    Actual    N/A       N/A       N/A       N/A       3.4%       17%       15%
  and Coastal
   Security                                                                       �         �
                    Result    N/A       N/A       N/A       N/A        N/A
                                                                                 Met       Met
                                                                                                    Removal rate of cocaine
                   Target                                                                           that is shipped via non­
     Drug                     15%      18.7%     20.7%      15%        19%       22%       26%
                                                                                                    commercial maritime
  Interdiction                                                                                      means
                    Actual
                             11.7%     10.6%     16.3%     30.7%      27.3%      26%       Est.*
                               X         X         X         �          �         �         �
                    Result
                             Not Met   Not Met   Not Met    Met        Met       Met       Met
                                                                                                    Percent of
                   Target                                                                           undocumented migrants
Undocumented                  87%       87%       87%       87%        88%       89%       91%
                                                                                                    who attempt to enter the
   Migrant                                                                                          U.S. via maritime routes
 Interdiction       Actual                                                                          that are interdicted or
                             82.5%     88.3%     85.3%     87.1%      85.5%     89.1%     93.7%
                                                                                                    deterred
                               X         �         X         �          X         �         �
                    Result
                             Not Met    Met      Not Met    Met      Not Met     Met       Met

                                                                                                    Percentage of time that
                   Target                                                                           CG assets included in
    Defense                   100%      100%      100%      100%      100%       100%      100%
                                                                                                    the Combatant
   Readiness                                                                                        Commander Operational
                    Actual                                                                          Plans are ready at a
                              67%       70%       78%       76%        69%       62%       51%
                                                                                                    status of Resources and
                                                                                                    Training System
                               X         X         X         X          X         X         X       (SORTS) rating of 2 or
                    Result                                                                          better
                             Not Met   Not Met   Not Met   Not Met   Not Met    Not Met   Not Met

                                                                                                    Number of incursions
                   Target                                                                           into the U.S. Exclusive
  Other Law                   202       202       202       202        200       199       199
                                                                                                    Economic Zone
 Enforcement
                    Actual
                              212       250       152       247        171       164       119
                               X         X         �         X          �         �         �
                    Result
                             Not Met   Not Met    Met      Not Met     Met       Met       Met
    Subtotal:
   Homeland
                             0 of 4   1 of 4   1 of 4    2 of 4   2 of 4  4 of 5  4 of 5
 Security Goals
       Met
* The Coast Guard estimates meeting the performance target based on forecasted cocaine flows, which will be
validated in the summer of 2008 with the publication of the Interagency Assessment of Cocaine Movement
Report.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2007) 


                                                   Page 22 

Appendix B
Homeland Security Missions

                             Homeland Security Mission: Ports, Waterways, and Coastal
                             Security

                             The Ports, Waterways, and Coastal Security mission is to prevent
                             and protect against maritime security threats, reduce America’s
                             vulnerability to those threats, and minimize the adverse
                             consequences of maritime security incidents that occur.

                             Resource Hours. Resource hours for Ports, Waterways, and
                             Coastal Security rapidly increased in response to the events of
                             September 11, 2001, resulting in a 1,039% increase over baseline
                             levels by FY 20073 as shown in the chart below. Ports,
                             Waterways, and Coastal Security is by far the largest user of
                             resource hours of any Coast Guard mission.

                                                            Ports, Waterways, and Coastal Security Resource Hours

                                                 300,000


                                                 250,000
                                Resource Hours




                                                 200,000


                                                 150,000


                                                 100,000


                                                  50,000


                                                      0
                                                           Baseline   2001      2002   2003     2004   2005    2006   2007
                                                                                        Fiscal Year


                             Source: U.S. Coast Guard Reported Data
                             Performance Targets and Results. The Coast Guard met its
                             performance target for FY 2007, and Coast Guard officials credited
                             interagency partnerships with much of the success. For example,
                             in partnership with the Transportation Security Administration, the
                             Coast Guard is implementing the Transportation Worker
                             Identification Card and is responsible for establishing and
                             enforcing card access control requirements at regulated vessels and
                             facilities. The Coast Guard is also partnering with the Domestic
                             Nuclear Detection Office to equip Coast Guard boarding teams
                             with radiation detection equipment.


3
    Prior to FY 2001 and the subsequent formal establishment of the Ports, Waterways, and Coastal Security
    program, resource hours were collected under a variety of categories that were used to establish the
    baseline.


            Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                                      Page 23
Appendix B
Homeland Security Missions

                     Homeland Security Mission: Drug Interdiction

                     The Coast Guard’s Drug Interdiction mission is key to combating
                     the flow of illegal drugs to the United States. This mission is to
                     reduce the supply of drugs from the source by denying smugglers
                     the use of air and maritime routes in the Transit Zone, a six million
                     square mile area that includes the Caribbean, Gulf of Mexico, and
                     Eastern Pacific. The Coast Guard is the lead federal agency for
                     maritime drug interdiction and shares responsibility for air
                     interdiction with U.S. Customs and Border Protection.

                     Resource Hours. As shown in the chart below, the Drug
                     Interdiction mission FY 2007 resource hours decreased by 20%
                     from FY 2006 and are 39% below baseline levels. According to
                     Coast Guard officials, the decrease in Drug Interdiction resource
                     hours is largely attributed to the shift in operational focus to the
                     Transit Zone in the Eastern Pacific Ocean and deep Caribbean Sea
                     where the Coast Guard has achieved record drug removals in 2 of
                     the past 3 years.


                                                                Drug Interdiction Resource Hours

                                         140,000

                                         120,000

                                         100,000
                        Resource Hours




                                          80,000

                                          60,000

                                          40,000

                                          20,000

                                              0
                                                   Baseline   2001      2002   2003     2004   2005   2006   2007
                                                                                Fiscal Year


                     Source: U.S. Coast Guard Reported Data
                     Performance Targets and Results. For FY 2007, the Coast
                     Guard estimates that it will meet its performance target based on
                     forecasted cocaine flows, which will be validated in the summer of
                     2008. The mission set a record in FY 2007 with 355,754 pounds
                     of cocaine removed. The Coast Guard states that contributing
                     factors to this success were: 1) Availability of actionable
                     intelligence through close partnerships with Joint Interagency Task
                     Force-South, and the Organized Crime Drug Enforcement Task
                     Force investigation Panama Express; 2) International cooperation



      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                              Page 24
Appendix B
Homeland Security Missions

                     and partnerships; and 3) Expanding Airborne Use of Force by
                     U.S. Coast Guard marksmen on Navy helicopters.
                     Homeland Security Mission: Undocumented Migrant
                     Interdiction

                     The Undocumented Migrant Interdiction mission responsibilities
                     consist of enforcing immigration laws at sea. To fulfill its
                     responsibilities, the Coast Guard conducts patrols and coordinates
                     with other federal agencies and foreign countries to interdict
                     undocumented migrants at sea, denying them entry via maritime
                     routes to the United States, its territories, and its possessions.

                     Resource Hours. Resource hours declined from FY 2005 to
                     FY 2006 because of the decrease of available 110’ cutters and the
                     removal of eight 123’ cutters from service. Coast Guard officials
                     said that due to strategies to shift deployment vessels from other
                     missions and increase the use of high speed interdiction boats,
                     FY 2007 resource hours increased by 46% from FY 2006, resulting
                     in a 234% increase over the baseline level.

                                                      Undocumented Migrant Interdiction Resource Hours

                                        120,000


                                        100,000
                       Resource Hours




                                         80,000


                                         60,000


                                         40,000


                                         20,000


                                             0
                                                  Baseline   2001      2002   2003     2004   2005       2006   2007
                                                                               Fiscal Year


                     Source: U.S. Coast Guard Reported Data

                     Performance Targets and Results. The Coast Guard met its
                     target for this mission in FY 2007, which Coast Guard officials
                     attributed to vessel-on-vessel use of force tactics, high-speed
                     interdiction boats, and increased use of biometric identification.

                     In order to improve the ability to capture and record results, this
                     measure will be retired for FY 2008 and replaced by a measure of
                     the percent of undocumented migrants who are interdicted or
                     deterred when attempting to enter the U.S. via maritime routes.


      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                             Page 25
Appendix B
Homeland Security Missions

                     Homeland Security Mission: Defense Readiness

                     The Defense Readiness mission is to provide essential capabilities
                     to support national security and military strategies. Resource hours
                     depict the execution of these defense missions, while the
                     performance targets and results measure the Coast Guard’s
                     readiness to perform the mission.

                     Resource Hours. As shown in the chart below, resource hours for
                     Defense Readiness reached their highest level in FY 2006.
                     Resource hours decreased by 14% in FY 2007 from FY 2006, still
                     resulting in a net 505% increase over baseline.

                                                              Defense Readiness Resource Hours

                                         50,000
                                         45,000
                                         40,000
                        Resource Hours




                                         35,000
                                         30,000
                                         25,000
                                         20,000
                                         15,000
                                         10,000
                                          5,000
                                             0
                                                  Baseline   2001   2002    2003      2004   2005   2006   2007
                                                                              Fiscal Year


                     Source: U.S. Coast Guard Reported Data

                     Performance Targets and Results. This performance measure
                     has not been met from FY 2001 through FY 2007. The Coast
                     Guard indicates that for FY 2007, readiness of Port Security Units
                     was below standards. Coast Guard officials said that declining
                     readiness of the aging legacy fleet limited asset availability to
                     combatant commanders. The Coast Guard expects this trend to
                     continue until new Deepwater assets (replacement vessels and
                     aircraft) are fielded.

                     In addition to the existing performance measure, and in order to
                     improve the ability to capture and record results, the following two
                     performance measures will be added for FY 2008:

                                    •        Defense readiness of Port Security Units, and
                                    •        Defense readiness of patrol boats.




      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                             Page 26
Appendix B
Homeland Security Missions

                           Homeland Security Mission: Other Law Enforcement

                           Other Law Enforcement is responsible for preventing illegal foreign
                           fishing vessel encroachment in the U.S. Exclusive Economic Zone.4
                           This Coast Guard mission plays a vital role in protecting the
                           integrity of our maritime borders and ensuring the health of United
                           States fisheries. The Coast Guard focuses on three high-threat areas
                           for illegal foreign incursions: the United States—Mexican border
                           in Gulf of Mexico, the United States—Russian Maritime Boundary
                           Line in the Bering Sea, and the eight non-contiguous Exclusive
                           Economic Zones in the Western/Central Pacific.


                           Resource Hours. As shown in the chart below, the resource hours
                           for the Other Law Enforcement mission were below baseline in
                           every year except FY 2007. The greatest numbers of resource
                           hours were recorded in FY 2007, measuring 16% above baseline.
                                                                         Other Law Enforcement Resource Hours

                                              10,000

                                               9,000

                                               8,000

                                               7,000
                             Resource Hours




                                               6,000

                                               5,000

                                               4,000

                                               3,000

                                               2,000

                                               1,000

                                                  0
                                                       Baseline   2001      2002        2003         2004       2005   2006   2007
                                                                                           Fiscal Year


                           Source: U.S. Coast Guard Reported Data
                           Performance Targets and Results. In FY 2007, for the third year
                           in a row, the Coast Guard met this performance target. According
                           to Coast Guard officials, foreign fisheries enforcement efforts were
                           notably successful in working with the Department of State to
                           engage Central American Governments in ensuring that their
                           fishing fleets honor U.S. Exclusive Economic Zone restrictions in
                           the Pacific Ocean.

4
 An Exclusive Economic Zone generally extends to a distance of 200 nautical miles (370 km) out from its
coast. Within the Exclusive Economic Zone, the coastal state has sovereign rights for the purpose of
exploring, exploiting, conserving, and managing natural resources, both living and nonliving, of the seabed,
subsoil, and the subjacent waters and, with regard to other activities, for the economic exploitation and
exploration of the zone. The U.S. has the largest Exclusive Economic Zone in the world, encompassing
over 2.25 million square miles and 90,000 miles of coast line.


         Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                                                     Page 27
Appendix C
Objectives, Scope, and Methodology

                      Section 888 (f) (1) of the Homeland Security Act of 2002 directs
                      the Inspector General to conduct an annual assessment of the Coast
                      Guard’s performance of all its missions, with a particular emphasis
                      on non-homeland security missions. The objective of this review
                      was to determine the extent that resource hours and performance
                      results and targets for each Coast Guard mission have changed
                      from prior to September 11, 2001, through FY 2007.

                      We reviewed the following GAO testimonies:

                          •	 Coast Guard Observations on the Fiscal Year 2009 Budget,
                             Recent Performance, and Related Challenges,
                             GAO-08-494T, March 6, 2008;
                          •	 Coast Guard Deepwater Program Management Initiatives
                             and Key Homeland Security Missions, GAO-08-531T,
                             March 5, 2008;
                          •	 Coast Guard Preliminary Observations on Deepwater
                             Program Assets and Management Challenges,
                             GAO-07-446T, February 15, 2007;
                          •	 Coast Guard Efforts to Improve Management and Address
                             Operational Challenges in the Deepwater Program,
                             GAO-07-460T, February 14, 2007; and
                          •	 Coast Guard Observations on the Fiscal Year 2008 Budget,
                             Performance, Reorganization, and Related Challenges,
                             GAO-07-489T, April 18, 2007.

                      We analyzed the total number of resource hours reported by the
                      Coast Guard prior to September 11, 2001, through FY 2007. We
                      did not attempt to verify the resource hour data, nor did we attempt
                      to validate whether the Coast Guard had accurately classified such
                      data. We assessed total resource hours for the 11 individual Coast
                      Guard missions to identify the changes in each.

                      We analyzed performance measures and targets to determine
                      whether the targets for each of the Coast Guard’s missions had
                      been accomplished. We obtained information on performance
                      from the Department of Homeland Security Annual Performance
                      Report, Fiscal Years 2007-2009. We also reviewed the FY 2009
                      President’s Budget Request Strategic Context Congressional
                      Submission for the U.S. Coast Guard. Lastly, we held discussions
                      with Coast Guard officials to obtain information on why the Coast
                      Guard did not meet its performance targets for certain missions.




       Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                          Page 28
Appendix C
Objectives, Scope, and Methodology

                      We conducted our review between March and May 2008 under the
                      authority of the Inspector General Act of 1978, as amended, and
                      according to the Quality Standards for Inspections, issued by the
                      Council of the Inspectors General on Integrity and Efficiency
                      (CIGIE).




       Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                          Page 29
Appendix D
Management Comments to the Draft Report




      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007) 


                                         Page 30 

Appendix D
Management Comments to the Draft Report




      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007) 


                                         Page 31 

Appendix D
Management Comments to the Draft Report




      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007) 


                                         Page 32 

Appendix D
Management Comments to the Draft Report




      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007) 


                                         Page 33 

Appendix D
Management Comments to the Draft Report




      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007) 


                                         Page 34 

Appendix D
Management Comments to the Draft Report




      Annual Review of the United States Coast Guard’s Mission Performance (FY 2007) 


                                         Page 35 

Appendix E
Major Contributors to this Report



                      Michael Siviy, Director
                      Barry Russell, Audit Manager
                      Michael Brunelle, Auditor in Charge
                      Gary Alvino, Referencer




       Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                          Page 36
Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Audit Liaison
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      USCG Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




       Annual Review of the United States Coast Guard’s Mission Performance (FY 2007)

                                          Page 37
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
